WAIVER

SUPREME COURT OF THE UNITED STATES

 

Supreme Court Case No, 20-7612
: Michael D. Johnson y, Indiana
@etitioner) Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following boxes:
@ Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents, Please enter my
Appearance as Counsel of Record for the following respondent(s):

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

Signiture_\Stiahig F Conse fag
vate_Aou) do, 202

(Type or print) Name Stephen R. Creason
Ov OMs Gers. GQ Miss

Firm_Office of the Attorney General

Address Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN ip 46204
Phone_317-232-6222

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SH, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Daniel Scott Harawa, Washington University in St. Louis
Benjamin Miller, Wren Collective
| Clark M. Neily, I, Cato Institute

 

 
